<html>
<title> - AGRO-DEFENSE: RESPONDING TO THREATS AGAINST AMERICA'S AGRICULTURE AND FOOD SYSTEM</title>
<body><pre>[Senate Hearing 112-338]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 112-338

                      AGRO-DEFENSE: RESPONDING TO
         THREATS AGAINST AMERICA'S AGRICULTURE AND FOOD SYSTEM

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 13, 2011

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                  U.S. GOVERNMENT PRINTING OFFICE
72-478 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
               Nicholas A. Rossi, Minority Staff Director
                  Trina Driessnack Tyrer, Chief Clerk
            Joyce Ward, Publications Clerk and GPO Detailee


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 RON JOHNSON, Wisconsin
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                Lisa M. Powell, Majority Staff Director
             Jessica K. Nagasako, Professional Staff Member
               Rachel R. Weaver, Minority Staff Director
               Jena N. McNeill, Professional Staff Member
                      Aaron H. Woolf, Chief Clerk










                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Akaka................................................     1
Prepared statement:
    Senator Moran................................................    33

                               WITNESSES
                      Tuesday, September 13, 2011

Colonel John T. Hoffman (Ret.), Senior Research Fellow, National 
  Center for Food Protection and Defense, University of Minnesota     3
Paul Williams, DVM, Director of Agriculture, Food and Veterinary 
  Programs, Division of Homeland Security, Georgia Emergency 
  Management Agency..............................................     5
Lisa Shames, Director, Natural Resources and Environment, U.S. 
  Government Accountability Office...............................    16
Doug Meckes, DVM, Director of Food, Agricultural, and Veterinary 
  Defense Division, Office of Health Affairs, U.S. Department of 
  Homeland Security..............................................    18
Ted Elkin, Director, Office of Food Defense, Communication and 
  Emergency Response, Center for Food Safety and Applied 
  Nutrition, Food and Drug Administration, U.S. Department of 
  Health and Human Services......................................    20
Sheryl K. Maddux, Deputy Director, Office of Homeland Security 
  and Emergency Coordination, U.S. Department of Agriculture, 
  accompanied by John R. Clifford, DVM, Deputy Administrator and 
  Chief Veterinary Officer for the Animal and Plant Health 
  Inspection Service.............................................    22

                     Alphabetical List of Witnesses

Elkin, Ted:
    Testimony....................................................    20
    Prepared statement...........................................    66
Hoffman, Colonel John T. (Ret.):
    Testimony....................................................     3
    Prepared statement...........................................    34
Maddux, Sheryl K.:
    Testimony....................................................    22
    Prepared statement...........................................    79
Meckes, Doug:
    Testimony....................................................    18
    Prepared statement...........................................    57
Shames, Lisa:
    Testimony....................................................    16
    Prepared statement...........................................    47
Williams, Paul:
    Testimony....................................................     5
    Prepared statement...........................................    43

                                APPENDIX

Questions and responses for the record from:
    Dr. Meckes...................................................    92
    Mr. Elkin....................................................    95
    Ms. Maddux...................................................   102
Background.......................................................   108

 
                      AGRO-DEFENSE: RESPONDING TO
         THREATS AGAINST AMERICA'S AGRICULTURE AND FOOD SYSTEM

                              ----------                              


                       TUESDAY SEPTEMBER 13, 2011

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:37 p.m., in 
room SD-628, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka and Moran.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. I call this hearing of the Subcommittee on 
Oversight of Government Management (OGM), the Federal 
Workforce, and the District of Columbia to order. I want to 
welcome our witnesses. Aloha and thank you so much for being 
here.
    Today the Subcommittee will examine the Federal 
Government's progress in implementing the Nation's food and 
agriculture defense policy. Specifically, we will look at our 
readiness to respond to and recover from a terrorist attack and 
natural disasters affecting food and agriculture, and we will 
be reviewing a new Government Accountability Office (GAO) 
report on that topic.
    Protecting agriculture is critically important to the well-
being of Americans. The U.S. agriculture and food sector 
annually generates more than $300 billion worth of food. One in 
12 American jobs is in this sector. Agro-terrorism, such as the 
deliberate introduction of animal and plant diseases, poses a 
critical threat to both public health and the world economy.
    The agricultural and food system is particularly vulnerable 
because relatively unsophisticated methods could produce 
tremendous damage. For instance, foot-and-mouth disease is a 
highly contagious disease affecting cattle and certain other 
animals. It can easily be transmitted by aerosol, clothing, and 
shoes.
    The impact of a foot-and-mouth disease outbreak could be 
devastating to our country's economy. The 2001 outbreak in the 
United Kingdom (UK) resulted in the slaughter of approximately 
7 million animals, and financial losses of $8 billion to 
agriculture, tourism, and other sectors. In 2002, documents 
from an al-Qaeda training camp showed that the terrorist group 
had researched how to compromise U.S. food supplies.
    As we mark the 10-year anniversary of the September 11, 
2001, attacks, we may not be facing a specific agro-terror 
plot, but we must remain vigilant.
    I would like to highlight several issues that particularly 
concern me. The Government Accountability Office will testify 
that there is no centralized coordination to oversee the 
Federal Government's progress in implementing Homeland Security 
Presidential Directive (HSPD) 9 which spells out our Nation's 
agro defense policy. This means we cannot be sure of the 
effectiveness of agencies' efforts.
    Additionally, I am concerned about how well Federal 
agencies are working with each other and their State, Tribal, 
local, and industry partners. No single agency has the ability 
to address these threats and challenges alone. All levels of 
government, industry, and citizens need to work together to 
limit the consequences if an attack occurs. We will look at 
different areas where coordination and collaboration is 
critical, such as information sharing, surveillance, and 
disaster assistance.
    I am also concerned about the Federal veterinarian 
workforce and its ability to respond to major animal disease 
outbreaks, such as the bird flu or foot-and-mouth disease. 
Federal veterinarians perform critical food safety research and 
public health functions.
    I held a hearing in 2009 on this topic, where GAO 
identified several challenges, including troubling veterinarian 
shortages at numerous agencies involved in food safety 
inspections and responding to these disease outbreaks. Since 
that hearing, the Office of Personnel Management (OPM) has 
established a council that brings Federal agencies together to 
work on this issue. I look forward to hearing about what 
progress the agencies here today have made in this area.
    Since the September 11, 2001, attacks, we have taken steps 
to prepare for an attack on our food or agricultural systems, 
but I remain concerned that America is not ready to effectively 
respond and recover from an agricultural food event. I look 
forward to hearing from our witnesses this afternoon and to a 
productive discussion with you.
    I look forward to hearing from our first panel and welcome 
you here today. Colonel John Hoffman, who is the Senior 
Research Fellow at the National Center for Food Protection and 
Defense (NCFPD), at the University of Minnesota, and Dr. Paul 
Williams, the Director of Agriculture, Food, and Veterinary 
Programs at the Georgia Emergency Management Agency.
    As you know, it is the custom of the Subcommittee to swear 
in all witnesses, and I would ask both of you to stand and 
raise your right hand.
    Do you swear that the testimony that you are about to give 
before the Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Hoffman. I do.
    Dr. Williams. I do.
    Senator Akaka. Thank you. It will be noted for the record 
that the witnesses answered in the affirmative.
    Before we start, I want you to know that your full written 
statements will be part of the record, and I would also like to 
remind you to please limit your remarks to 5 minutes. Colonel 
Hoffman, will you please proceed with your statement?

STATEMENT OF COLONEL JOHN T. HOFFMAN (RET.),\1\ SENIOR RESEARCH 
   FELLOW, NATIONAL CENTER FOR FOOD PROTECTION AND DEFENSE, 
                    UNIVERSITY OF MINNESOTA

    Colonel Hoffman. Chairman Akaka, I am honored to represent 
the National Center for Food Protection and Defense, a U.S. 
Department of Homeland Security (DHS) Center of Excellence 
(COE), to provide my perspective on the progress and continuing 
needs in the effort to defend the Nation's food supply 
infrastructure from intentional attacks and catastrophic 
failure.
---------------------------------------------------------------------------
    \1\ The prepared statement of Colonel Hoffman appears in the 
appendix on page 34.
---------------------------------------------------------------------------
    We believe the global integration and overall complexity of 
the food supply chain requires that we continue to improve our 
extensive food safety system and aggressively deploy and mature 
our food defense capabilities.
    The availability of sufficient and safe food is key to the 
health and stability of any Nation. Food is the one 
infrastructure you cannot opt out of. The dual mission of 
safety and defense, collectively referred to as food 
protection, must have the same standing and dedication of 
resources as protecting any other infrastructure.
    Despite the significant progress in food protection 
resulting from Homeland Security President Directive (HSPD)-7 
and HSPD-9, and the Food and Drug Administration (FDA) and the 
U.S. Department of Agriculture (USDA), sector-specific plans 
under the National Infrastructure Protection Plan (NIPP), and 
the impending implementation of the new FDA Foods Modernization 
Act, much remains to be done.
    Thousands die and hundreds of thousands are sickened each 
year by food-borne illness. Dr. Robert Scharff estimated in his 
article on health-related costs from food-borne illness in the 
United States, that the cost to the Nation is at least $152 
billion. Some contend it is closer to $1.4 trillion once 
private sector costs are included.
    Given the current level of food-borne illness in the United 
States, the concentration of supply chains, our growing 
reliance on food imports from Nations with suspect food safety 
standards, and the increasing frequency of economically 
motivated adulteration events, how will we know an actual 
terrorist attack has taken place, as opposed to another routine 
food-borne illness event.
    In fact, it may not take weeks, but months to recognize 
that an intentional attack on our food system is unfolding. 
Recent events such as the contamination of green peppers with 
Salmonella St. Paul from Mexico, and this summer's bean sprout 
contamination with E. coli in Germany demonstrate the large 
geographic footprint, the potential for extensive casualties, 
substantial financial burden, and political cost where only a 
small quantity of one product in international trade is 
involved.
    This has not been lost on our potential adversaries. For 
example, the following is a translation provided by the Counter 
Agro Terrorism Research Center (CATRC), in Israel of a recent 
post to a Jihadist internet forum: ``I say, and may Allah help 
us to success, the qualities of the E. Coli, as well as the 
ability to develop it into biological weapon, bio-engineered in 
a laboratory, make the E. coli a most attractive candidate and 
a significant element in biological warfare, spreading 
violently, and killing silently, irritating the enemies and 
tearing their guts apart.'' Chilling to hear.
    Key provisions of HSPD-9 have been implemented with varying 
degrees of success. Functional information surveillance, 
deployment of preventive controls, and mitigation strategies 
have all suffered from distributed responsibilities across 
government, gaps in overlaps and agency authorities and their 
capabilities, and concerns about unintended consequences.
    The variability of food safety governance from local to 
State to Federal is another key problem in deploying and 
maturing an effective food defense system. Simply put, there is 
no single, coherent, clearly delineated line of authority over 
our Nation's food defense efforts.
    The various and not insignificant challenges are further 
complicated by concerns over proprietary information 
protection, liability issues, and the difficulty of 
implementing an effective system that does not unnecessarily 
drive up the cost of food. The unfortunate truth is that we as 
a Nation lack effective surveillance for emergent high 
consequence food borne illness events, domestic and global.
    At present, our primary detection capability is the 
emergency room. This limits us to a detect to respond 
capability. Relying primarily on a response-focused detection 
system is expensive, both in terms of human suffering and 
economic impact.
    While we can start in many places, what we need most is to 
expand surveillance and detection to include points much 
earlier in these events' time lines. This would enable 
mitigation strategies or preventive controls to be informed by 
surveillance and detection.
    There are two detection modes that need to become our 
objective capabilities, both of which are envisioned in the 
Food Safety Modernization Act (FSMA). First and more reasonably 
developed, with commitment, appropriate senior leadership 
emphasis and some moderate resourcing is detect to protect. 
This capability detects and identifies serious emergent events 
closer to the first casualties so as to intervene and protect 
more of the population that might otherwise be exposed.
    Ultimately, we need to move to a detect to prevent policy, 
where surveillance detects contaminated adulterated products 
before they are consumed and emergent events in foreign 
countries are detected before they reach the United States. 
Such capability, combined with new risk assessment, event 
modeling, diagnostic tools, and improved mitigation and 
response capabilities could render our food supply chain a less 
attractive target for our adversaries.
    From many perspectives, the Food Modernization Safety Act 
may place too much of the early intentional threat 
identification task on the private sector where there is only 
limited capability to fulfill this role. As a result, we may be 
blindsided by an intentional food-based attack on this Nation 
some time soon.
    Such an event could deal a devastating blow to the psyche 
of the Nation, it could have a decades-long impact on our 
national economy, productivity, national security, and our own 
food security. Successful implementation of the FSMA, which 
recognizes the risk covered in the spectrum of biological to 
chemical to radiological, will certainly reduce incidents of 
food borne illness, but a lot remains to be done.
    Aligning government authorities, supporting an increasingly 
complex nature of responsibilities across government and 
industry, and averting criminal and terrorism-related 
contamination events without unduly increasing the price of 
food is a daunting challenge. As many in the food and 
agriculture sector have stated, food is the ultimate weapon of 
mass distribution and agriculture is the ultimate weapon of 
mass unemployment.
    Failure to effectively deploy a national food and 
agricultural defense capability represents a major strategic 
risk to the Nation. This risk begs additional focus, new 
approaches to our food system, preventive controls, 
surveillance, and early event detection. We ignore these at our 
peril. Thank you.
    Senator Akaka. Thank you very much, Colonel Hoffman. Dr. 
Williams, please proceed with your statement.

 STATEMENT OF PAUL WILLIAMS,\1\ DVM, DIRECTOR OF AGRICULTURE, 
 FOOD, AND VETERINARY PROGRAMS, DIVISION OF HOMELAND SECURITY, 
              GEORGIA EMERGENCY MANAGEMENT AGENCY

    Dr. Williams. Senator Akaka, I appreciate the opportunity 
to appear before you today and give you an overview of the 
State's perspective to the implementation of HSPD-9 and the 
Emergency Support Function (ESF-11). From the State's 
perspective, the entire concept of ESF-11 and integrated 
agriculture emergency management did not begin with September 
11, 2001. It began in the 1990s as a result of natural 
disasters.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Williams appears in the appendix 
on page 43.
---------------------------------------------------------------------------
    In 1994, Georgia, Florida, and Indiana became the first 
States in the Nation to have an ESF-11 in the State Emergency 
Operation Plan. In 1995, the National Institute of Animal 
Agriculture comprised of the Nation's largest agribusinesses, 
recommended that the Federal Government install an ESF-11 in 
the Federal Response Plan (FRP).
    In 2001, the National Emergency Management Association 
(NEMA) contracted with the Georgia Emergency Management Agency 
(GEMA) to write a model ESF-11 to be added to the Federal 
Response Plan. In 2002, the Gilmore Commission recommended to 
the White House Advisory Council to the President that the 
intent of the model be placed in the new National Response 
Plan. This is the genesis of ESF-11.
    The concept of Animal Health Emergency Management (AHEM) 
and Agriculture and Food Defense has for the most part been a 
capability that has found its leadership, direction, and energy 
at the State level. Federal agencies have, for the most part, 
participated with a reluctant acceptance.
    In the broad context of Food Defense and Critical 
Infrastructure, there is a reluctance to provide the same level 
of commitment as they have in food safety. The Department of 
Homeland Security, although having statutory responsibility for 
all elements of the National Response Framework (NRF), 
including Critical Infrastructure, frequently abdicate their 
responsibility for leadership and oversight to the sector 
specific agencies that view these responsibilities ``as other 
duties.''
    States have grown increasingly frustrated with the lack of 
a comprehensive strategy for coordination and implementation of 
a State, regional, and national Agriculture and Food Defense 
Risk Reduction Plan that addresses the elements of national 
critical infrastructure.
    Preliminary assessments done by each State demonstrate that 
as much as two-thirds of what their citizens consume came from 
another State. Food defense requires State, regional, and 
national coordination. To accomplish regional capabilities, 
States have begun to organize. Ten southern States formed the 
State Animal and Agriculture Disaster Response Alliance 
(SAADRA). In the Midwest, 12 States formed the Multi-state 
Partnership to begin work on food defense issues.
    In 2009, these two regional Alliances met to discuss common 
goals and objectives. We identified early on a major problem. 
Six years after HSPD-9, the Government Coordinating Council 
(GCC) had yet to develop a definition of a National Agriculture 
or Food Critical Infrastructure Site. As a result, for 6 years 
after HSPD-9, there were no such sites identified in the United 
States except for Federal buildings.
    In January 2010, over 100 representatives from 30 States 
met with the Department of Homeland Security, Homeland 
Infrastructure Threat Risk Analysis Center (HITRAC). After 3 
days of meetings, HITRAC accepted the States' recommendation 
for a definition. By June 2010, over 1,400 Level 2 Agriculture 
and Food National Critical Infrastructure Sites had been 
identified and validated by HITRAC.
    Training and exercise has changed little since 2005 and 
does not address the measure of effectiveness of our capability 
as required by the National Infrastructure Protection Plan.
    In 2009, Georgia hosted and conducted a full scale, live 
agent exercise at the Federal Law Enforcement Training Center 
(FLETC). Over 300 participants from 60 local, State, Federal, 
and private sector agencies and organizations participated. The 
scenario, a chemical attack on the U.S. food supply, created 
80,000 illnesses and 40,000 deaths in an unmitigated attack.
    In the exercise, a consequence model, funded by the State 
Homeland Security Grant Program (SHSGP), tracked the 14 target 
capabilities exercised and the consequence reduction of each. 
At the end of the exercise, it could be demonstrated that the 
actions taken by the participants reduced the number of 
illnesses to 27,000 and the number of deaths to 12,000.
    States have demonstrated the ability to advance the 
capabilities necessary for true agriculture and food defense. 
This requires funding. From 2003 to 2007, the Federal Emergency 
Management Agency (FEMA) reported that the Agriculture and Food 
Sector received approximately one percent of the State Homeland 
Security Grant Program funds.
    Recently, the U.S. Animal Health Association (USAHA), 
through a resolution, requested funding for a regional exercise 
and training. FEMA denied this request, stating that from 2007 
to 2011, the Agriculture and Food Sector had received 20 
percent of the State Homeland Security Grant Program funds. The 
States refute this amount following a polling of States by the 
SAADRA group. All States report no increase in funding to the 
agriculture and food sector from 2007 to 2011.
    We must continue to measure the effectiveness of our 
capability. A list of accomplishments to be checked off as done 
does not answer the question, ``are we safer today than we were 
before? '' Understanding the Agriculture and Food System as 
Critical Infrastructure will allow us to prioritize response so 
that each natural disaster does not carve away another piece of 
our economic viability that does not return. Thank you.
    Senator Akaka. Thank you very much, Dr. Williams, and thank 
you both for your testimony.
    Colonel Hoffman, you testified that there is little doubt 
that those who want to do us harm will study disease and food-
borne illness events and that agro-terrorism presents 
substantial risks to the United States. I would like to hear 
more from you about the threat.
    Would you please discuss why you believe terrorists may be 
attracted to using food as a weapon, and what economic and 
social costs a serious food-based attack could have nationally 
and globally?
    Colonel Hoffman. Well, Senator, at the beginning you 
mentioned the foot and mouth disease (FMD) risk. As was 
demonstrated in the U.K. in 2001, the impact on society, the 
cost to the Nation, in this case Britain, to deal with an event 
like that went far beyond anybody's expectations. And, in fact, 
the full appreciation of the impact on the country socially, 
economically from a trade standpoint, and just everyday life, 
was not fully appreciated for years afterwards.
    This is not lost on our enemies. They recognize this, as 
was demonstrated in the records that were found at Tarnak Farms 
in Afghanistan. Obviously they had been thinking about this 
because we found written evidence that was the case. These 
events were horrendous and they had tremendous impact.
    Food, for the human side, is simply the fastest way to make 
things happen. This quote that I provided to you is actually an 
extract from a much larger translation from a blog in a 
Jihadist forum where they actually discuss why food makes a 
good weapon or a modality to deploy a weapon, and how effective 
even common pathogens can be.
    And I think, while we have given appropriate focus to what 
we call select agents, the more virulent, more dangerous 
pathogens, these common everyday pathogens like E. coli, which 
surface in our food supply system with unnerving frequency 
anyway, could be easily weaponized and the systems for 
deploying it are demonstrated with every one of these food 
outbreaks. And the cost of these food outbreaks, as with 
Salmonella St. Paul, where 44 States were impacted and many, 
many people were made ill.
    This is documented in the media. They can study the media, 
they can see what happened, they can see very clearly how the 
event unfolded, and they provide what we call die studies for 
somebody to look at it and examine how one of these events may 
occur.
    I am not suggesting this would be easy to do, but I am also 
suggesting it would not be difficult for somebody with 
determination and some very limited resources. So I believe 
that the risk is there. I think that implementing the various 
defense plans that have been promulgated already by the 
agencies, but also fully implementing, fully resourcing the 
Food Safety Modernization Act would help go a long way toward 
making defense a reality.
    But I am also concerned about accountability and how we 
make that happen and how we hold people accountable to make 
sure those defense plans are put in place.
    Senator Akaka. Thank you Colonel Hoffman. You testified 
that even if the 2011 Food Safety Modernization Act is funded 
and regulations are put in place, that there still remains the 
challenge that there is no single authority in charge of all 
aspects of the system.
    Will you please elaborate on why you believe it is 
important to have one authority in charge of food defense?
    Colonel Hoffman. I think the simplest way to describe that 
need is that it is very difficult to bring to bear, if you 
will, the majority of their resources to effectively focus your 
resources on a critical need when the use of those resources 
and accountability for those resources if fragmented across 
numerous agencies.
    And this is by no means a criticism of those agencies. They 
are doing what they think are their priorities, their mandates, 
and what their leadership views needs to be done. But the 
simple truth is, this results in gaps and overlaps. And lacking 
that clear line of authority and accountability for steps that 
have been taken, the preparation for a defense is going to 
leave gaps.
    It is going to leave those overlaps in place. We will not 
effectively use the limited resources we have, and in today's 
economy, that is unacceptable. We have to do a better job of 
effectively using the resources we have, applying them in the 
most effective manner, and achieving the greatest level of 
defense we can with the modest resources available.
    Senator Akaka. Thank you. Dr. Williams, you raised concern 
about the lack of leadership and commitment from the Federal 
Government on a comprehensive strategy for agriculture and food 
defense. Will you please elaborate on these concerns?
    Dr. Williams. Yes, sir. The concerns that we have at the 
State level are, I think, vastly different than some of the 
concerns that you see at the Federal level. We, at the State 
level, have to deal with this issue from a situation where it 
is in our backyard. In other words, every incident occurs in 
someone's county, someone's municipality that type of issue.
    And so, the capability that we have has to be driven down 
to that particular level, and there is no coordination 
currently to really accomplish that. I mentioned in my 
testimony the issue of not having the ability to identify 
critical infrastructure sites in our States and in our 
counties.
    An ag and food critical infrastructure site is a site that, 
if compromised, could cause 10,000 or more casualties, affect 
five or more States, and could take longer than a year to 
recover. That is a Level 2 national critical infrastructure ag 
and food site.
    As I mentioned, up until 2010, we did not have any of those 
sites identified at the State and local level so that we could 
even begin preparedness to prepare for any type of mitigating 
actions for those particular sites. We did not know they 
existed. Today we know that they exist.
    But one of the things that we have to do to manage those 
types of assets at the State and local level is to be able to 
identify them, place them in what is called the Automated 
Critical Asset Management System that is operated by the State 
and local law enforcement, where we begin at that grassroots 
level to be able to provide the type of security that we need 
for those types of sites.
    We cannot protect everything, but we have to begin to 
protect those things that can be most injurious to us if we are 
attacked. And we have had really no leadership or direction for 
how to actually do that. The States have been doing it by 
ourselves, more or less, as I mentioned, through some of those 
compacts.
    We have over 30 States right now that are part of regional 
compacts and we are adding States every day. The testimony that 
I gave to you earlier was not just my opinion. Thirty States 
reviewed my testimony before I submitted it to you. And so, it 
is a general consensus of what we are all seeing out there.
    And so, we are looking for ways to begin to develop a 
State, regional, and national comprehensive food defense 
capability and we do not have that right now.
    Senator Akaka. Thank you. Dr. Williams, according to your 
testimony, FEMA reports that from 2007 to 2011, the agriculture 
and food sector received approximately 20 percent of State 
Homeland Security Grant Program funds. You refuted that number, 
indicating that in 2003 to 2007, FEMA reported that only one 
percent of these funds went to the agriculture and food and 
that the States' you surveyed reported no increase in funding 
from FEMA.
    Have you been able to determine the source of this 
discrepancy? Also, what impact has low funding levels had on 
preparing for a food and agriculture incident?
    Dr. Williams. The States did refute that amount of 20 
percent, and I can certainly supply you with all of the reports 
from 2003 to 2007 where FEMA stated that the States had 
received one percent of the State Homeland Security Grant 
Program funds, which is really how States develop their 
preparedness.
    Each State, based on population and risk and various and 
sundry other types of triggers, receive X amount of dollars. 
And out of that, the States determine what they actually are 
going to fund. As we have formed these regional alliances, we 
began to share information as to how much funding we were 
actually getting to develop preparedness for food defense, and 
we have a lot of data that I could share with you that shows 
each State's allocation for those actions from 2003 forward.
    We were unaware that there was any discrepancy being 
reported until the U.S. Animal Health Association requested 
funding for training and exercise and were denied, and in the 
denial letter, FEMA reported, at that time, that there was from 
2007 to 2011 there was 20 percent going to the ag and food 
sector at the State level.
    We refuted that and we have sought to be able to validate 
the discrepancy by polling each State, and from 2003 to--excuse 
me--from 2007 to 2011, we have a spreadsheet that shows how 
much each year each State actually got for those purposes. 
Where the 20 percent came from we do not know.
    Now, we have asked FEMA to supply us where those figures 
came from and they have refused to give us that information. So 
why there is a discrepancy I am not really sure.
    Senator Akaka. Thank you very much. I would like to call on 
the Senator from Kansas, Mr. Moran. Thank you so much for being 
here and for any opening remarks you may have and questions.
    Senator Moran. Well, Mr. Chairman, thank you very much. I 
would just express--I will submit my opening statement for the 
record, other than to express my appreciation to you for 
hosting and holding this hearing.
    Senator Akaka. It will be included in the record.
    Senator Moran. This is a significant issue, certainly for 
our country. As a Kansan, this is a significant issue for us. 
Food safety and cultivation agriculture is a significant 
component of our economy and just the rumor of a contaminant 
has dramatic consequences upon the agricultural industry and 
certainly upon the prices received.
    And so, I want to make certain that we, as a Congress, and 
the Department of Homeland Security and others involved in this 
topic are doing the necessary things to protect our food 
supply.
    In that regard, let me just ask a broad question, and maybe 
I will start with you, Dr. Williams. Your sense of the 
commitment by the Department of Homeland Security is, is food 
and agricultural safety a priority, a focus of the U.S. 
Department of Homeland Security?
    Dr. Williams. I think it is a concern of Homeland Security. 
One of the worst things that we did following September 11, 
2001, was to coin the term agro-terror. The moment that we did 
that we stovepiped ourselves as something different.
    If you actually look at an attack on agriculture, whether 
it be foot and mouth disease or avian influenza or any of those 
types of things, it actually is a Chemical, Biological, 
Radiological, Nuclear and Explosive (CBRNE) attack. It is an 
attack using a chemical, biological, or radiological agent on 
the food supply, whether it is to impact economically, 
agriculture or food, or whether it is to use the agriculture 
and food supply as a method of disseminating a chemical, 
biological, or radiological agent.
    CBRNE, going back to the question about the FEMA funding, 
from 2003 to 2007, FEMA reported that there were five target 
capabilities that received 56 percent of all the State Homeland 
Security Grant Program money. One of those was critical 
infrastructure, which is one reason we are desperate to be in 
the critical infrastructure game.
    The other one was CBRNE. That was one of the five most 
funded target capabilities. And so, we are beginning to look at 
those attacks on the food supply as a CBRNE event, rather than 
an agro-terror event. I am not sure if that answers your 
question, but----
    Senator Moran. And the result of that distinction is what? 
What does that mean in practical terms?
    Dr. Williams. In practical terms, that means that we were 
not at the funding table, and States----
    Senator Moran. So the categorization matters as far as the 
priority or emphasis, at least in funding, that comes from the 
Federal Government?
    Dr. Williams. Absolutely. I actually work for the State 
Administrative Agency in my State. We are the ones that 
actually manage all of the State Homeland Security Grant 
Program funds, and my area of expertise is ag and food defense. 
And I, on a weekly basis, tried to make a point that we needed 
funding for the ag and food sector for various reasons, for 
CBRNE and for especially critical infrastructure.
    And I was told for over 6 years that until we have a 
definition of an ag and food critical infrastructure site, we 
are not eligible for any of those funds. So there were 6 years 
lost in my State, in your State, and in every State.
    Senator Moran. Is there an understanding within the 
security community as to where a contamination might most 
likely occur? What is the distinction between plant agriculture 
and livestock agriculture? Is it more clear that we are more 
susceptible or our vulnerabilities lie on the livestock side?
    And in addition to the production side of agriculture, then 
is it more likely that something happens in production 
agriculture versus something that happens as the food is 
processed in the food chain?
    Dr. Williams. That is a complicated question.
    Senator Moran. Where are the greatest risks, is my 
question, I guess.
    Dr. Williams. Well, I think the greatest risk for economic 
damage probably comes in the production agriculture side, from 
the introduction of a foreign animal disease or something of 
that nature.
    Senator Moran. And it is on the animal side?
    Dr. Williams. On the animal side. If you are looking at the 
ability to kill people, it is obviously in the processing side 
of things so that you are actually creating a product that is 
going to be directly consumed by the public. It is also those 
things that are going to be consumed rapidly, in other words, 
things that are either packed on ice or stored not in cans, 
things of that nature.
    Things that are going to sit on a shelf for a long period 
of time are not as attractive as something like seafood, for 
instance, that is going to be disseminated and eaten by the 
public within literally 72 hours. Those are particularly 
vulnerable and particularly dangerous areas.
    Senator Moran. Is our focus more on prevention or upon 
containment?
    Dr. Williams. I think our focus is primarily on response. I 
think something happens, we respond. There is not enough effort 
being made to prevent these things from happening at all. I 
mean, let us face it. There is going to be less consequences if 
it never happens.
    And one of the things that we are challenged with, and that 
is one of the reasons that the critical infrastructure piece is 
so important, is that one of the things that we are forced to 
do in complying with the National Infrastructure Protection 
Plan, is to look at critical nodes, and then when we to look at 
those critical nodes from where are their supply chains, what 
are their distribution footprints, and we begin to develop a 
picture of what that system or subsystem begins to look like in 
a State, in a region, and across the country. This helps define 
risk.
    I had actually met with the Federal Bureau of 
Investigations (FBI) last week with our Fusion Center folks and 
one of the things that they brought up is that intelligence is 
bits and pieces of information. And people describe that as a 
piece of a puzzle. Well, one of the FBI agents said something 
that I thought was particularly good in describing our 
situation.
    A puzzle comes in a box with a picture of what the puzzle 
looks like on the top. We are forcing our intelligence people 
to take bits and pieces of the puzzle and put it together with 
no picture of what the puzzle even looks like.
    And through our efforts of painting that picture through 
critical infrastructure, we are able to begin to describe what 
that picture of the puzzle looks like. And we have a better 
chance of interdicting and preventing some of these things from 
happening to begin with.
    Senator Moran. When you say our focus is more on the 
containment side, do we have the necessary scientific and 
technological base of information to know what the response is 
to be? Is our science sufficient to respond? As you indicate, 
the most likely attack or introduction of an agent would be on 
the side of livestock.
    Do we have the scientific basis to know what to do when 
that occurs or is there research yet to be done?
    Dr. Williams. I think that we have a good capability to 
respond. It is not an accident that we have not had foot and 
mouth disease in this country since the 1960s or 1950s 
possibly. Good surveillance, good programs to control and 
eradicate those types of things, import/export rules and 
regulations, those all protect us from those types of events.
    I think we have the ability to identify an incident after 
it has occurred and to respond to it reasonably well. One of 
the things that we saw--and I hate to keep giving a historical 
perspective--but one of the things that we started seeing in 
the mid-1980s was a depletion of the agriculture and food 
response community as far as people are concerned.
    We have fewer and fewer people available at the State and 
field level to respond to one of these types of incidents. And 
that was one of the reasons that we developed Animal Health 
Emergency Management and Agriculture Emergency Management, is 
because we were able to dip into the emergency management 
community to get the resources that we no longer had in the ag 
and food community.
    And that is still true today. Even though there has been 
some improvements in the workforce, we still do not have enough 
boots on the ground to be able to respond to a major event 
without utilizing the entire emergency management system.
    Senator Moran. Doctor, thank you very much. Colonel, I did 
not intend to ignore you, although I finally, in visiting with 
Georgia, I can understand. Appreciate the conversation, Mr. 
Chairman. Thank you very much.
    Senator Akaka. Thank you very much. Let me start a second 
round of questions. Colonel Hoffman, you raise concerns that 
the intelligence community does not focus adequately on 
emerging dangers within the global food and agriculture sector. 
You stated that this could result in us being blindsided by the 
next event.
    Would you please describe what you believe the appropriate 
level of assessment would look like?
    Colonel Hoffman. I would be happy to.
    Senator Akaka. Also, what steps need to be taken to achieve 
this?
    Colonel Hoffman. I would be happy to do that. I think it 
would be useful to start with an example of one of the 
shortcomings, because I believe that our intelligence folks do 
a great job in many areas, but I do not believe that they have 
sufficient mandate or instruction for actually collecting the 
kind of information that we need.
    I would start with the example of melamine in wheat gluten. 
When that event occurred, that product was brought into the 
United States as a supposedly human food grade product. It was 
purchased by one company from another company through a 
commodity brokerage arrangement. The broker went out and found 
the product in a foreign country, imported it into the United 
States, and sent it to the company that ultimately used it in 
pet food, fortunately.
    Well, the reality is that the situation was actually 
understood by others in the international community and we seem 
to have been totally blindsided by that event.
    For example, the Chinese entities involved had already been 
caught putting melamine in products like that in other 
countries. All right? Two specifically were Australia and the 
European Union where they had been banned from importing those 
products because of their tendency to do that.
    Yet, that information was not readily available to our 
industry, was not known by various agencies in the U.S. 
Government or the State governments that was the case. The 
product was allowed to come into the country without inspection 
and forwarded directly to that firm and put into the 
marketplace.
    We need to fix that. We need to create a capability, 
establish requirements and collection plans, if you will, in 
the intelligence community to begin to identify when there are 
changes or shifts in commodity actions in other countries or 
where there are players who may be cheating on the system.
    And there are indicators out there if we are tuned to watch 
them, and I am afraid we are not, and I believe that this level 
of surveillance and detection that I have been referring to 
needs to move beyond the traditional that we are doing looking 
for indicators of biologic events for human disease.
    But actually out into the agriculture community, the food 
production community around the world to watch for indicators 
that there are nefarious players, there is somebody preparing 
to or conducting economically motivated adulteration, or 
somebody worse may be planning to exploit the food supply 
chain.
    Senator Akaka. Thank you. Dr. Williams, as you may know, my 
home State will be hosting the Asian-Pacific Economic 
Cooperation (APEC) meeting this fall which Secretary Napolitano 
has designated as a national special security event (NSSE). I 
understand that you were a member of an advisory committee for 
a previous NSSE event.
    What are some of the things that we should be focusing on 
to ensure a safe and secure event in regard to food?
    Dr. Williams. A national special security event is a 
challenge. My first exposure to one was actually the 1996 
Olympic games, but most recently, the 2004 G-8 Summit that was 
held in Sea Island, Georgia. And the thing that was obvious to 
us in developing a food defense plan for the Group of 8 and all 
30 heads of State that also attended, was they were all fed in 
congregate feeding areas. In other words, there were areas that 
were secured so that they could have their luncheons and their 
dinners and so forth.
    It takes at least 6 months, preferably a year, of 
preparation to put together a food defense plan that is 
adequate. So planning ahead of time is really important. It is 
not rocket science. In doing the G-8 Summit, we basically met 
with the White House food staff and we met with the venue that 
was actually going to be preparing all the food for the Group 
of 8.
    And we questioned them and we found that they were 
customarily getting food from over 60 vendors that supplied the 
various types of food that would be prepared for the President 
and the rest of the Group of 8.
    We looked at those vendors and many of those vendors did 
not have the ability to secure their food that we felt was 
adequate. Now, we, being the State of Georgia, both public 
health and agriculture and emergency management and USDA and 
FDA, and it was a very good partnership in preparing for that 
particular event.
    An FDA team was responsible for the Group of 8. There were 
17 other congregate feeding stations for first responders and 
other people that were part of those delegations. The 
responsibility for those other 17 congregate feeding areas fell 
upon the State, as it would in your State, as far as public 
health and agriculture, to secure the food that would go into 
those congregate areas.
    What we actually did is we simply reduced the number of 
vendors from 60 to about three vendors that we could actually 
provide adequate food security and defense for. Most of those 
three companies actually had the ability, as a company, to 
provide the level of security that we actually thought 
necessary.
    All of the food that was purchased for the event, with the 
exception of a few perishable products, was actually purchased 
months ahead of time and put in refrigerated warehouses where 
they had 24-hours-a-day, 7-days-a-week armed law enforcement. 
And the food that went to the Group of 8 actually moved to 
those sites in sealed trucks with a law enforcement escort.
    Like I say, it is labor-intensive, but it is not 
particularly rocket science. It is just figuring out what it is 
that you can protect that will provide the most security for 
those that are attending the event.
    Senator Akaka. Thank you. I would like to give both of you 
an opportunity to provide any final statements or comments. Dr. 
Williams, let me call on you first.
    Dr. Williams. Actually, you have asked me to talk a lot 
today and I certainly appreciate the opportunity. Actually, for 
those of us at the State level, this is a particularly unique 
opportunity to say in front of a group like this the concerns 
that we actually have.
    Today at 11 o'clock, a conference call with the SAADRA, 
States, the southern States, and the Midwest Multi-State 
Partnership, took place and there was great excitement that we 
were actually going to get an opportunity to have our view of 
this actually heard. I appreciate the opportunity for doing 
that.
    Senator Akaka. Thank you very much. Colonel Hoffman.
    Colonel Hoffman. I would simply like to say that I very 
much appreciate the opportunity to come and be a part of an 
effort like this. This seems to me, like a step toward re-
invigorating the process of getting food defense established as 
a priority and funded here in the United States. I thank you 
very much for the opportunity and commend you for holding the 
hearings.
    Senator Akaka. Thank you very much. Senator Moran, do you 
have any further questions?
    Senator Moran. Mr. Chairman, just one additional question. 
You mentioned Australia and another country in regard to 
knowing something that we did not know and prohibiting the 
information did not become available or we were not aware. Are 
there countries out there that are role models for us, Colonel 
Hoffman? Are there things that other countries are doing better 
that we ought to look at?
    Colonel Hoffman. Well, first I would say nobody is doing it 
perfectly, and that is evidenced by the events that occur in 
those countries. But I think there are lessons to be learned. 
Australia is a good example of how they handle imports, how 
they monitor food and agriculture products coming into their 
country, and the focus that they put on early detection and 
prevention at the border. I think we can learn from that.
    I think in partnership with the EU, there is a lot we can 
do to improve our ability to prevent port-shopping and the 
kinds of things that nefarious players do to try to get things 
into our countries. So I think this is going to have to be a 
partnership with other countries, just as it has to be a 
partnership with government and industry to solve it.
    Senator Moran. Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Moran. I want 
to thank our first panel. Your testimonies have been valuable 
to us this afternoon and I want to again thank you for your 
point in trying to focus on this agro-terrorism here in our 
country. Thank you very much.
    I would like to ask the second panel now to come forward. I 
want to welcome our second panel. Ms. Lisa Shames, who is the 
Director of Natural Resources and Environment at the Government 
Accountability Office; Dr. Doug Meckes, Director of Food, 
Agricultural, and Veterinary Defense Division at the Office of 
Health Affairs at the Department of Homeland Security; Mr. Ted 
Elkin, Director of the Office of Food Defense, Communication 
and Emergency Response at the Food and Drug Administration at 
the Department of Health and Human Services (HHS); Ms. Sheryl 
Maddux is the Deputy Director, Office Homeland Security and 
Emergency Coordination at the Department of Agriculture, and 
she is accompanied by Dr. John Clifford, who is the Deputy 
Administrator and Chief Veterinary Officer for the Animal and 
Plant Health Inspection Service (APHIS). Dr. Clifford is not 
providing a statement, but is available to respond to 
questions.
    It is the custom of this Subcommittee to swear in all 
witnesses and I would ask you to please stand and raise your 
right hands.
    Do you solemnly swear that the testimony you are about to 
give this Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Ms. Shames. I do.
    Dr. Meckes. I do.
    Mr. Elkin. I do.
    Ms. Maddux. I do.
    Mr. Clifford. I do.
    Senator Akaka. Thank you. Let the record show that all 
witnesses responded in the affirmative.
    Before we start, I want you to know that your full written 
statements will be made a part of the record and I would also 
like to remind you to please limit your oral remarks to 5 
minutes. Ms. Shames, please proceed with your statement.

 STATEMENT OF LISA SHAMES,\1\ DIRECTOR, NATURAL RESOURCES AND 
       ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Shames. Thank you. Chairman Akaka, Senator Moran, I am 
pleased to be here today to discuss the defense of this 
country's food and agriculture system. Senator Akaka, as you 
observed in your opening statement this is an especially timely 
issue in observing the tenth anniversary of September 11, 2001.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Shames appears in the appendix on 
page 47.
---------------------------------------------------------------------------
    As one could imagine, any natural or deliberate disruption 
could present a serious threat. My testimony today highlights 
GAO's key findings from a report that was requested by Senator 
Akaka and is being released today. GAO's overall message is 
twofold. First, there is no centralized oversight of the 
Federal Food and Agricultural Defense policy, and second, USDA 
faces challenges in implementing its responsibilities.
    Regarding GAO's first key finding, that there is no 
centralized oversight, we found that food and agriculture 
defense responsibilities cut across several Federal agencies. 
For this reason, centralized oversight is critical to help 
ensure an effective response.
    At one time, DHS and the White House Homeland Security 
Council collected information from agencies about their various 
activities, but that has ceased. Because there is no 
centralized oversight, it is unclear if efforts to protect food 
and agriculture are well-designed and can reduce the Nation's 
vulnerability to and the impact of terrorist attacks, major 
disasters, and other emergencies.
    GAO's second key finding is that USDA does not have a 
departmentwide strategy for implementing its food and 
agriculture defense responsibilities. Such a strategy is 
essential to guide progress in achieving national security 
goals. Instead, USDA has delegated these responsibilities to 
its agencies.
    Although these agencies have taken steps to implement the 
Department's response and recovery responsibilities, they face 
challenges. For example, the National Veterinary Stockpile 
(NVS), was developed to respond to the 17 most damaging animal 
diseases such as a highly pathogenic avian influenza. 
Positively, critical supplies have been acquired, guidance has 
been developed, and a full-time liaison was hired to help the 
States.
    However, there are still complex implementation challenges. 
In particular, vaccines and diagnostic test kits for certain 
diseases have either not been developed or may be too costly 
for purchase. Also, some vaccines could take longer than the 
required 24 hours to deliver to the States. And finally, there 
may be missed opportunities with HHS to leverage resources with 
the Strategic National Stockpile which contains medical 
supplies for human health emergencies, and as such, may be 
useful for responders in animal emergencies.
    Repeating your opening statement that responding to an 
outbreak of a highly contagious disease, Senator Akaka, you 
mentioned specifically foot and mouth disease. It also presents 
challenges as we have seen in the recent outbreaks in Japan, 
Korea, and the United Kingdom.
    In particular, animals infected with foot and mouth disease 
should be disposed of within 24 hours. But USDA has told us 
that it could take as long as 80 days to depopulate a single 
feed lot. While burial has been the preferred disposal method, 
USDA officials told us that this may not be feasible on a large 
scale, and could have public health consequences if done 
incorrectly.
    Positively, USDA's draft response plan for foot and mouth 
disease considers other approaches such as vaccines for at-risk 
animals that could help mitigate these concerns.
    USDA also faces challenges coordinating the Federal food 
and agriculture response for natural disasters, including 
hurricanes, floods, and winter storms. There have been 28 in 
the last 5 years. Positively, State officials we met with said 
that having a single USDA coordinator facilitated communication 
and contributed to a successful response.
    However, State officials also told us that because multiple 
Federal agencies become involved, responsibilities are not 
always clear and could delay a response. These delays could 
pose a public health risk. In one case during Hurricane Ike, 
water surges washed cattle, horses, and poultry 15 to 20 miles 
inland, leaving dead livestock in backyards, in front of 
hospitals, and on highways. We were told that time was lost 
because it was unclear if USDA or the Corps of Engineers was to 
carry out the disposal. In the end, it was USDA that carried it 
out.
    In addition, we found that USDA has not consistently 
prepared after-action reports. These are documents that 
summarize what went well and what needed improvement during an 
emergency. Without a more consistent and comprehensive 
reporting process, USDA managers may not have the necessary 
information to identify gaps and address them through 
corrective actions to help ensure that past mistakes are not 
repeated.
    In our report, we are making numerous recommendations to 
help ensure that the Federal Government can effectively 
implement a food and agriculture defense, and adequately 
respond to and recover from emergencies affecting food and 
agriculture. All the agencies we evaluated concurred with our 
recommendations.
    This concludes my prepared remarks and I would be pleased 
to answer any questions that you may have.
    Senator Akaka. Thank you very much, Ms. Shames. Now I will 
call on Dr. Meckes. Please proceed with your statement.

      STATEMENT OF DOUG MECKES,\1\ DVM, DIRECTOR OF FOOD, 
AGRICULTURAL, AND VETERINARY DEFENSE DIVISION, OFFICE OF HEALTH 
         AFFAIRS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Dr. Meckes. Thank you, Chairman Akaka, Senator Moran. My 
name is Dr. Doug Meckes and I am the Branch Chief for the Food, 
Agricultural and Veterinary Defense Branch of the Office of 
Health Affairs (OHA) at the Department of Homeland Security. 
Thank you for the opportunity to speak to you regarding DHS's 
efforts to defend our Nation's agriculture, food, human and 
animal health in an all-encompassing one-health approach.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Meckes appears in the appendix on 
page 57.
---------------------------------------------------------------------------
    A central tenet of the DHS mission is protecting the 
Nation's agriculture, food, human and animal health in the face 
of all hazards. DHS works to complement the efforts of our 
partners, including other Federal agencies, that focus on food 
and agriculture safety to protect our agriculture and food 
systems which are critical to our public health and to our 
economic well-being.
    Homeland Security President Directive-9, Defense of the 
United States Agriculture and Food, establishes national policy 
to defend the agriculture and food system against terrorist 
attacks, natural disasters, and other emergencies. DHS is 
responsible for coordination of the overall national effort to 
protect critical infrastructure and key resources of the United 
States.
    OHA is specifically charged by the Secretary of DHS with 
providing oversight and management of DHS's implementation of 
HSPD-9, and coordinating those efforts with other Federal 
departments and agencies, State, local, Tribal, and territorial 
governments, and the private sector.
    While much remains to be achieved, DHS has approached HSPD-
9 tasks and responsibilities in the spirit of collaboration and 
coordination. With the release of HSPD-9 in February 2004, the 
Secretary of DHS was identified as the lead and co-lead for 
specific tasks within HSPD-9. Today I will provide an overview 
of DSH activities, initiatives, and progress with regard to 
several of these tasks.
    One of OHA's primary responsibilities is to mitigate the 
consequences of biological incidents through early detection. 
Within DHS, OHA operates, manages, and supports the 
Department's biological defense and surveillance programs. The 
BioWatch Program provides for the detection of aerosolized 
biological agents and the National Biosurveillance Integration 
System (NBIS) provides the means to develop and maintain an 
integrated, real-time, multi-discipline surveillance picture.
    In order to develop resources capabilities related to 
agriculture and food, State and local governments must 
integrate the agriculture and food interests into their 
emergency planning efforts. To facilitate this integration, OHA 
partnered with the National Center for Food Protection and 
Defense to develop the Food Sector Food and Agriculture 
Readiness Measurement Toolkit.
    This tool allows the States to self-assess the strengths of 
their food emergency resources plans. Four States are currently 
testing the FARM toolkit.
    OHA also partnered with the Center of Excellence for 
Emerging Zoonotic and Animal Diseases (CEEZAD) to develop a 
partner page on the lessons learned, information-sharing portal 
where emergency providers and Homeland Security officials can 
access an online network of content related to lessons learned, 
best practices, innovative ideas on food, agriculture, and 
veterinary defense.
    A standardized, unified response plan is imperative for 
effective incident management. The Food Emergency Response Plan 
(FERP) template assists States with the development of a food-
related emergency response plan, which can be integrated into 
existing all-hazards response planning. OHA partnered with the 
National Association of the States' Department of Agriculture 
to revise and update the Food Emergency Response Plan template 
to align it with the national response framework.
    With 20 percent of the United States gross national product 
coming from agriculture, the importance of the private sector 
in defending our food supply and keeping our economy strong is 
critical. The National Infrastructure Protection Plan provides 
a unifying structure for a public/private partnership model to 
enhance the protection of the Nation's critical infrastructure.
    For the food and agriculture sector, DHS's Office of 
Infrastructure Protection (IP) and the sector-specific lead 
agencies, USDA and FDA, co-chair the Government Coordinating 
Council which developed a sector-specific plan to advance 
security. The GCC acts as the counterpart and partner to the 
private industry-led Sector Coordinating Council (SCC) to plan, 
implement, and execute sufficient and necessary sector-wide 
security programs for the Nation's agriculture and food 
sector's critical assets.
    DHS's Science and Technologies (S&T's) Office of University 
Programs taps the expertise of our Nation's colleges and 
universities to address pressing homeland security needs 
through the Centers of Excellence Program. The Centers of 
Excellence engage the academic community to enhance the 
Department's Homeland Security capabilities for the agriculture 
and food sector.
    In addition to the National Center for Food Protection and 
Defense, at Minnesota and CEEZAD at Kansas State University, 
OUP has created the National Center for Foreign Animal and 
Zoonotic Disease (FAZD) Defense at Texas A&M.
    Senators Akaka and Moran, I have touched briefly on just a 
few aspects of DHS engagement in the agriculture and food 
sector, and I am pleased to answer any questions you may have.
    Senator Akaka. Thank you very much, Dr. Meckes. Mr. Elkin, 
would you please proceed with your statement?

 STATEMENT OF TED ELKIN,\1\ DIRECTOR, OFFICE OF FOOD DEFENSE, 
 COMMUNICATION AND EMERGENCY RESPONSE, CENTER FOR FOOD SAFETY 
   AND APPLIED NUTRITION, FOOD AND DRUG ADMINISTRATION, U.S. 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Mr. Elkin. Good afternoon, Chairman Akaka and Senator 
Moran. I am Ted Elkin, Director of the Office of Food Defense, 
Communication and Emergency Response for the Center for Food 
Safety and Applied Nutrition (CFSAN) at the Food and Drug 
Administration, which is part of the Department of Health and 
Human Services. Thank you for the opportunity to discuss our 
food defense activities.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Elkin appears in the appendix on 
page 66.
---------------------------------------------------------------------------
    Food safety and food defense continue to be top priorities 
for FDA. A terrorist attack on the food supply could have both 
severe public health and economic consequences, while damaging 
the public's confidence in the food we eat.
    FDA is the Federal agency that regulates all the food we 
eat except for meat, poultry, and processed egg products which 
are regulated by our partners at the U.S. Department of 
Agriculture.
    FDA's primary mission is to protect the public health. 
Ensuring that FDA regulated products are safe and secure is a 
vital part of that mission. While performing our mission, we 
play a central and a leadership role in the Nation's defense 
against acts of intentional contamination. It is FDA's goal, 
working closely with other government and private sector 
stakeholders, to reduce the likelihood that an FDA-regulated 
product could be used to poison or otherwise harm Americans.
    We also help ensure that the Nation's public health system 
is prepared to deter a potential threat and is ready to respond 
to an act of intentional contamination, including terrorism. 
FDA has been working closely with DHS, USDA and other Federal 
agencies to implement the Homeland Security Presidential 
Directives. HHS and USDA exercise key responsibilities as food 
sector-specific agencies and serve as co-leads for the food 
sector within the Government Coordinating Council.
    The GCC is charged with coordinating agriculture and food 
defense strategies, activities, and communication across 
government and between the government and private sector 
partners. The Food and Agriculture Sector is a public/private 
partnership that combines expertise from several Federal 
agencies, as well as that of State, local, tribal, and 
territorial officials, and the private sector, including more 
than 100 trade associations and individual firms participating.
    Mr. Chairman, I would now like to describe FDA's other food 
defense activities. FDA's risk-based approach to food defense 
helps the Agency determine where to focus its resources. As 
part of its efforts to anticipate threats to the food supply, 
FDA has conducted extensive scientific vulnerability 
assessments of different categories of food, determining the 
most serious risks of intentional contamination with different 
biological or chemical agents during various stages of food 
production and distribution.
    Results of these updated assessments are being used to 
develop technology interventions and mitigation strategies, 
identify research needs, and provide guidance to the private 
sector. FDA has made available vulnerability assessment 
software for the food industry to determine the vulnerability 
of individual food facilities to attack.
    FDA has also developed and made available other tools to 
help our stakeholders implement and enhance food defense 
measures. The Food-Related Emergency Exercise Boxed Set 
released in July, is a compilation of five scenarios based on 
intentional and unintentional food contamination events, which 
was developed in collaboration with the Centers for Disease 
Control (CDC) and USDA. The Food Related Emergency Exercise 
Boxed (FREE-B), is designed to assist government regulatory and 
public health agencies in assessing food emergency response 
plans, protocols, and procedures. It provides stakeholders with 
a variety of options to test and improve their capabilities to 
respond to food-related human or animal health emergencies.
    The Food Defense Mitigation Strategy Database launched in 
March 2011 is a new resource outlining preventive measures 
designed for companies that produce, process, store, package, 
distribute and/or transport food or food ingredients.
    Two additional training tools that FDA has developed are 
Employee FIRST and ALERT to educate front-line food industry 
workers and managers about how to lower the risk of intentional 
food contamination.
    Before concluding, Mr. Chairman, I would like to briefly 
mention the FDA Food Safety Modernization Act, which will 
provide further protections for American consumers from both 
intentional and unintentional contamination. FSMA gives FDA a 
modern mandate and toolkit to improve the safety of the 
country's food supply. It shifts our food safety focus from 
reaction and response to prevention, so that prudent prevention 
measures will be systematically built into all parts of the 
food system.
    Specifically to address the threat of intentional 
contamination, FSMA directs FDA, in consultation with DHS and 
USDA, to issue regulations to require appropriate science-based 
mitigation strategies or measures to protect certain high-risk 
foods against intentional contamination. Previously, FDA could 
recommend, but not require, implementation of such food defense 
measures.
    In closing, Mr. Chairman, due to the enhancements being 
made by FDA and our food defense partners, the United States 
food defense system is stronger than ever before. Although we 
have made progress, we are continuously working to improve our 
ability to prevent, detect, and respond to terrorist threats 
and other acts of intentional contamination.
    Thank you for this opportunity to discuss our food defense 
activities. I would be pleased to respond to any questions. 
Thank you.
    Senator Akaka. Thank you very much, Mr. Elkin. Ms. Maddux, 
would you please proceed with your statement?

 STATEMENT OF SHERYL K. MADDUX,\1\ DEPUTY DIRECTOR, OFFICE OF 
 HOMELAND SECURITY AND EMERGENCY COORDINATION, U.S. DEPARTMENT 
 OF AGRICULTURE; ACCOMPANIED BY JOHN R. CLIFFORD, DVM, DEPUTY 
 ADMINISTRATOR AND CHIEF, VETERINARY OFFICE FOR THE ANIMAL AND 
                PLANT HEALTH INSPECTION SERVICE

    Ms. Maddux. Chairman Akaka and Senator Moran, I want to 
thank you for holding the hearing today on the important topic 
of responding to threats against America's agriculture and food 
system. On the heels of the 10-year anniversary of the 
devastating attacks of September 11, 2001, we are reminded of 
the need for improved vigilance and the importance of 
partnership and collaboration at all levels of government and 
with the private sector.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Maddux appears in the appendix on 
page 79.
---------------------------------------------------------------------------
    The U.S. Department of Agriculture considers defense of the 
food and ag sector a critical component of our mission to 
provide leadership on food, agriculture, natural resources, and 
related issues based on sound public policy, the best available 
science, and efficient management.
    The sector is composed of a complex system and has the 
capacity to feed people within and beyond the boundaries of our 
Nation. These systems, which are almost entirely under private 
ownership, operate in a highly competitive global market, 
strive to operate in harmony with the environment, and provide 
economic opportunities and improve quality of life for the 
rural and urban citizens of the United States and others around 
the world.
    The sector is dominated by small businesses that employ the 
majority of the food industry workforce and account for roughly 
one-fifth of the Nation's economic activity. Further, the 
sector supply chain operates at the international level with 
more than 20 percent of all U.S. imports being food products.
    My knowledge in the area of agriculture and food defense is 
comprehensive because for the past 9 years, I have been on the 
Department's career managers most closely and deeply involved 
in the Department of USDA's plans and operational programs.
    As Branch Chief of the Disaster and Emergency Operations at 
the U.S. Forest Service headquarters in Washington, DC, when 
the events of September 11, 2001, occurred, I was the highest 
ranking USDA career civil servant engaged with these issues 
based on my 21-year career as a U.S. Forest Service employee 
and program manager.
    The events of September 11, 2001, propelled the Department 
and myself with it into the rapids of change unleashed by these 
attacks. I served personally on the ground, both in New York at 
Ground Zero, and at the Pentagon. I was hand-picked by the 
Secretary of Agriculture in 2002 to develop USDA's internal 
plan, and also to represent USDA in joint efforts with the 
White House Homeland Security Council, and other Federal 
departments and agencies.
    Thus, I have played a major role in interpreting the 
principles, practices, regulations, and laws governing homeland 
security, emergency preparedness, continuity of operations of 
government, and the process of actually designing, implementing 
national level strategies and action plans to protect the 
safety and security of the Nation's food supply, research 
facilities, materials, and USDA employees.
    USDA has made significant progress in ability to defend the 
agriculture and food systems since the events of September 11, 
2001. USDA's Food Safety Inspection Service (FSIS), Animal and 
Plant Inspection Service, and the National Institute of Food 
and Agriculture enhance security through programs aimed at 
inspecting native and foreign agricultural products, conducting 
vulnerability assessments, and maintaining laboratory networks 
capable of rapidly identifying disease and pests that could 
have drastic consequences on our economy.
    Likewise, the Agriculture Research Service operates 
laboratories and funds research in the United States and abroad 
that seek to advance our ability to identify, remediate, and 
even prevent harmful pathogens that threaten the food and 
agriculture industry.
    Our USDA team has collaborated closely with Federal 
partners as well as State, local, tribal, and territorial and 
private partners to address critical components of the 
government's food defense plan. For example, in response to the 
Homeland Security Presidential Directive-7 and in close 
collaboration with FDA and DHS, USDA helped to establish the 
Food and Agriculture Government and Sector Coordinating 
Councils.
    We are currently participating in the Sub-Interagency 
Policy Committee led by the National Security staff to develop 
a national strategy for biosurveillance. In addition, USDA has 
formed a One Health Working Group to augment the respective 
missions and participating USDA agencies and offices. USDA 
agencies continue to develop and implement monitoring 
surveillance programs in collaboration with the Federal, State, 
local, tribal, and territorial and private sector partners.
    We actively participate in the National Biosurveillance 
Integration, Interagency Working Group, and in addition, FSIS 
has a full-time liaison working at the DHS National Biological 
Integration Center. APHIS also participates in that activity by 
routinely providing subject matter expertise and information 
sharing on animal health situational awareness on both the 
domestic and international issues.
    These and other issues in the area of surveillance, 
detection, response, and recovery are central to the ongoing 
work we are doing to increase our capability and our capacity 
to respond to an emergency. As the quick overview has shown, 
USDA plays a critical role in the Nation's security. Even in 
the current economic environment, it is critical that the 
agriculture industry continue to maintain and advance its 
capability and capacity to protect the U.S. food supply.
    Threats assume many forms, from natural hazards or acts of 
terrorism, that would inevitably cause losses in productivity 
that could decrease food availability for United States 
consumption, increase commodity prices, decrease exports, harm 
the national and international confidence in United States 
products, force smaller farms and ranches out of business, and 
additional monetary losses on a large scale recovery effort.
    USDA will continue to push forward in its effort to build a 
strategic and efficient approach to improving the safety and 
security of the Nation's food supply. Mr. Chairman, that 
concludes my statement. I am joined today by Dr. John Clifford 
who is the Deputy Administrator and Chief Veterinary Officer 
for APHIS's Veterinarian Services Program. So we would be happy 
to answer any questions.
    Senator Akaka. Thank you very much, Ms. Maddux.
    I want to ask Ms. Shames, as you stated in your testimony, 
GAO found no centralized coordination to oversee governmentwide 
progress in implementing the Federal Food and Agriculture 
Defense Policy. Would you please elaborate on the implications 
of the findings?
    Ms. Shames. What we found when we conducted this review was 
that at one time, the Department of Homeland Security, DHS, and 
the Homeland Security Council had collected information on what 
the various agencies' activities were, but interest waned a 
couple of years ago and we found that sort of oversight ceased.
    It has not started again. It is something that we 
recommended that both DHS and the Homeland Security Council 
resume. In particular, we recommended that there be an 
interagency process established, that agencies be encouraged to 
participate in that process, and the agencies, DHS and the 
Homeland Security Council staff agreed with that.
    The implications, of course, are that it puts the country 
at risk if we do not know what agencies are doing, and it puts 
us at risk that we cannot have a coordinated response if there 
were a food and agriculture emergency.
    Senator Akaka. Thank you. Dr. Meckes, GAO recommended that 
the Department resume its efforts to coordinate agencies' 
overall HSPD-9 implementation efforts. What steps will the 
Department take to implement GAO's recommendation?
    Dr. Meckes. Senator Akaka, as Ms. Shames mentioned, the 
Office of Health Affairs, DHS, had previously engaged in a 
benchmarking of HSPD-9 performance across the interagency. 
During 2007 and 2008, early 2009, we had literally a champion 
within the Homeland Security Council that supported us and 
worked with us to gather information and track the 
implementation of HSPD-9.
    As was mentioned, in 2009, our champion departed the 
Homeland Security Council (HSC) and then the National Security 
Council (NSC) was formed with the merger of NSC and HSC. The 
interest waned in the agriculture and food sector and the 
implementation of HSPD-9. At this point, we stand ready to 
support the National Security staff in whatever manner or 
fashion is deemed appropriate for DHS to participate in renewed 
efforts to monitor implementation.
    Senator Akaka. The next question is a followup for Mr. 
Elkin and Ms. Maddux. GAO's report states that White House 
National Security staff indicated that they are looking to re-
engage on HSPD-9 oversight. My question for you is, what 
interaction have you had recently with the White House on food 
and agriculture defense issues? Mr. Elkin.
    Mr. Elkin. I am not aware of that many White House 
activities that we have had from the perspective, if I could, 
in terms of the questions that you were asking earlier. For the 
Department, for the FDA and our partnership with the USDA, I 
mean, that is very much an engaged effort. When we train for 
exercises, we certainly try to have our Office of Crisis 
Management coordinate these activities higher and further 
through other agencies. I do not know exactly what the quote 
was in regard to White House involvement, but I will try to 
flesh that out.
    Senator Akaka. Thank you. Ms. Maddux.
    Ms. Maddux. I think what we have to look at, even though 
they have not had someone that was assigned as their food and 
agriculture coordinator that they have had in the past, they 
have continued to look into dealing with food and agriculture 
throughout their other interagency policy committees. So the 
Domestic Resilience Group that I sit on, a lot of the 
activities, even though they are not directly related to food 
and ag, they do touch on different aspects of how we would look 
at recovery through the type of response.
    Most recently, through the new Presidential Policy 
Directive-8 with the new preparedness goal that we are working 
on, that will have to also be folded into anything that we 
would do in ag and the food defense with HSPD-9. So even though 
we do not have a regular person looking on, there are aspects, 
if you break down HSPD-9 into the different taskings that are 
there that get picked up, it is just that it is the overall 
coordination of how they are looking at it is not put there.
    We continue to emphasize it within the Department because 
we still meet with all of our agencies on a monthly basis and 
do a monthly report. So we know how folks are doing on their 
HSPD-9, and then we also work with our partners as we put that 
information into the Annual Sector Report.
    Senator Akaka. Dr. Meckes, like I mentioned during the 
first panel, Hawaii will be hosting the Asia-Pacific Economic 
Summit meeting in November of this year. What steps has the 
Department taken to ensure a safe and secure event in regard to 
agro defense?
    Dr. Meckes. Chairman Akaka, we have not been privy to any 
of those activities thus far. I am certain that the National 
Special Event team is working that issue, but we provide 
consultation to them in regards to specific questions that 
might arise. So should those come to pass, I will certainly 
provide that information. But at the present time, we have not 
been involved in any of those planning efforts, or the Food and 
Agriculture been in any defense.
    Senator Akaka. Well, thank you very much. Let me call on 
Senator Moran for any questions he may have.
    Senator Moran. Chairman Akaka, thank you very much. I 
appreciate the testimony this afternoon. I do not know who 
exactly to direct this question to. Perhaps it is the 
Department of Agriculture, the Department of Homeland Security.
    Have there been known attempts to introduce foreign animal 
diseases to our agricultural food safety system? How serious 
are the threats? And what analysis has been done to suggest 
that this is a real threat to our food and agriculture system? 
Dr. Clifford.
    Mr. Clifford. Thank you, Senator. There have not, to my 
knowledge, been any actual known attempts for introduction. I 
think as Colonel Hoffman had stated, we were aware of those 
reports earlier, post-September 11, 2001, that those types of 
things have been discussed by terrorist groups. But to our 
knowledge, there has not been any attempt.
    Now, having said that, our work at USDA is to protect 
American agriculture, both plant and animal, from any 
introduction regardless of whether it is intentional or not 
intentional, and our response would be the same to either 
event. So we prepare for the event regardless.
    Senator Moran. That is a good point. Even though it may be 
intentional or it may not be intentional, the consequences 
could be very similar and very devastating. Is that true?
    Mr. Clifford. Yes, and it also is dependent upon the agent 
that they are introducing. So I would also add that in our 
preparedness, we do pathway analysis. We look at risk analysis 
on most likelihood of introduction of different types of 
diseases.
    Now, other than the terrorist threat, the most likely way 
for these types of diseases to enter the United States today is 
through accidental introduction, not through intentional 
introduction. Our import requirements are stringent, they are 
not zero risk-based. We do not close our borders, but they are 
a risk-based approach to minimize the introduction of foreign 
animal diseases into the United States.
    And as previously stated, we actually have not had a case 
of foot and mouth disease in this country since 1929. We have 
had an introduction in the last probably 8 to 10 years ago of 
exotic Newscastle disease in California. That in itself was a 
very devastating event for us, which we were able to respond to 
and address appropriately.
    Senator Moran. I mentioned this earlier, but I would 
reiterate, even the rumor of the disease introduction, whatever 
disease it is, has had tremendous consequences in market 
prices. But particularly even today, we are fighting to get our 
export markets back from really the rumor of BSE, for example. 
So the threat is certainly something to be concerned about, but 
in the absence of an actual introduction, other countries use 
this to their advantage, certainly to our--to their advantage 
economically.
    Mr. Clifford. Yes, sir, they do, and especially in a number 
of areas. I think, BSE is an issue that we have appropriately 
addressed throughout the world. It is a disease that is on a 
decline, but it is still used politically to block trade.
    With regards to diseases like foot and mouth disease, I 
think it is important, as noted in the GAO report. If we get 
foot and mouth disease into the United States, in certain parts 
of the country, it could be very devastating.
    But as an organization that is looking at the best interest 
for the livestock industry in the United States, we have to 
take a new approach, a new look to the way we address these 
diseases today. We cannot just have a scorched earth-type 
policy where we go out and kill and destroy millions and 
millions of animals, like we saw in the U.K. with burning 
carcasses.
    So we have to look at the development of new technologies, 
new vaccines to be able to address these in a more practical 
way where we minimize the amount of the animals that we are 
putting down and the destruction, and also, at the same time 
preventing spread of that disease from one herd to the next.
    Senator Moran. That is a segue to a line of a couple of 
questions that I wanted to followup, but it is also in line of 
my question to the gentleman, the previous witness from Georgia 
about prevention versus reaction or containment. You are 
suggesting that we need to have a greater emphasis or we are 
emphasizing more the prevention through vaccines and, I assume, 
other methods as compared to simply--it is not simple, but 
killing cattle after the fact.
    Mr. Clifford. Correct. And I would agree. The best approach 
is prevention, and prevention comes through early detection and 
that means you have to have good strong surveillance systems to 
be able to detect that. So those are the types of approaches we 
need to take.
    At USDA, one of the things that we are doing is we used to 
approach diseases from a standpoint of pulling samples on 
animals to test for a single or maybe two diseases. We are 
looking at implementation of a comprehensive surveillance 
approach and the first species we are looking at doing this for 
is swine, where we are looking at multiple disease issues with 
a single sample. So that we are doing the rights types of 
surveillance for multiple surveillance streams.
    But the thing is, those things do not always get the 
attention or the resources because they are not the issue today 
that is on the front page. It is a prevention issue. It is not 
a response and reaction issue.
    Senator Moran. Well, in addition to surveillance and, Dr. 
Meckes, your testimony talks about food and agricultural 
research, and you talk about the potential of a vaccine 
scheduled for completion based upon approval of APHIS and the 
regulatory process, in 2012.
    Do we have the scientific--let me say it this way. Through 
science and research, do we have the ability to develop the 
necessary vaccines and antivirals, the diagnostic capabilities 
to reduce the damaging economic and health consequences from 
the introduction of animal disease?
    Dr. Meckes. Senator Moran, as you are well-aware, the 
threat of foot and mouth disease to your State of Kansas is 
always on the mind of those of us involved in agriculture.
    Senator Moran. Thank you.
    Dr. Meckes. And certainly, the development of a vaccine has 
been one of the foremost efforts at Plum Island Animal Disease 
Center off the coast of New York. We are, in fact, in concert 
with the USDA, APHIS, and USDA Agricultural Research Service 
(ARS), close to developing a vaccine that will be available for 
foot and mouth disease.
    As to the specifics of the disease, the nature of it, I 
would ask that I could provide you with additional followup 
from the Science and Technology Directorate of the Department 
of Homeland Security that is working toward that end.
    Senator Moran. Well, that would be fine, sir. Let me ask a 
broad question which is, is that the hope for the future, is 
that we can develop the necessary capabilities through science 
and research so that the consequences of the introduction of 
one of these diseases is minimized so that really no terrorist 
ever decides, This is the way to attack the United States 
because the economic and life-threatening consequences of that 
introduction no longer are significant? Are we headed to that 
point? Is that a goal?
    Dr. Meckes. Absolutely, and I would suggest that it is not 
only a goal for all the critters in the country, it is a goal 
for folks as well, and the efforts that are ongoing at Plum and 
potentially NBIF, once the construction is complete there, will 
go a long ways toward, as Dr. Clifford said, preventing the 
disease and thereby eliminating it as a threat to our country.
    Senator Moran. Secretary Napolitano testified this morning 
in a full Committee hearing and indicated that we have a ways 
to go--this is my summary of what she said--in preparedness on 
agro bioterror and that NBIF, the facility needs to be built. 
What opportunities--and again, the Department of Agriculture or 
Department of Homeland Security, what expanded opportunities 
for research and vaccine development would be available with a 
Biosafety Level 4 facility that would reduce the risk to 
agriculture and humans?
    And in your testimony, Ms. Maddux, you talk a lot about 
that bio and agro defense facility.
    Dr. Meckes. Dr. Clifford, go ahead.
    Mr. Clifford. I think it is very important for us to have 
state-of-the-art facilities to be able to do our work in 
foreign animal disease diagnostics and research, which means 
not only having biosafety level 3 (BSL-3) capabilities, but the 
BSL-4 capabilities that you are responding to, to be able to 
work on diseases of concern that have not just an animal health 
concern, but human health concern, and can be worked with 
safely in these laboratories.
    We do not currently have that capability at Plum Island to 
do that type of work. That facility is reaching the end of its 
life span and so, it is very critical that we be able to have a 
state-of-the-art facility, to be able to do this type of work 
in.
    Senator Moran. Dr. Meckes.
    Dr. Meckes. Absolutely, Senator Moran, we concur. There is 
a crying need for a facility of this nature in this country at 
this time. Thank you.
    Senator Moran. Thank you, Mr. Chairman.
    Senator Akaka. Thank you. We will have a second round of 
questions. Dr. Meckes, HSPD-9 directs the DHS to work with its 
Federal partners to enhance our ability to detect an attack 
through biological threat awareness. In response, DHS created 
the National Biosurveillance Integration System. However, in 
2009, GAO found that NBIS was not fully equipped to carry out 
its mission because it lacked data and personnel from its 
partner agencies.
    Will you please discuss coordination and any other 
challenges the Department has faced in carrying out this 
responsibility?
    Dr. Meckes. Chairman Akaka, as a member of the Office of 
Health Affairs, like so many of my fellow members, we are 
deeply committed to the idea of a National Integrated 
Biosurveillance Program within the country, and we work closely 
with our colleagues at the NBIS and at the Center to provide 
updates on a daily basis.
    As a matter of fact, one of my staff is currently detailed 
to NBIS to provide food and agriculture expertise for their 
daily operations. We support their efforts. I think Colonel 
Hoffman spoke to this idea of detection to protect and even 
detection to prevent, and it is only through the capability of 
biosurveillance, gathering data, integrating data, analyzing 
data, and characterizing data will we ever have that 
capability.
    Senator Akaka. I would like to give the FDA and USDA an 
opportunity to discuss their efforts to coordinate with DHS on 
NBIS. Mr. Elkin.
    Mr. Elkin. Our role in NBIS is that of support. We have our 
directed information sharing to efforts like Food Shield and 
HSIN, which are their networks, but our role in NBIS, I think, 
has been just to provide the information sharing support and 
data that we could. But I do not know that we have an ongoing 
detail in that regard.
    Senator Akaka. Ms. Maddux
    Ms. Maddux. USDA has been involved with NBIS since the very 
beginning. We have had members on the NBIS interagency working 
group. I have been the representative to the NBIS Interagency 
Oversight Council. We have done a lot of work, realizing that 
it is challenging when you are looking at all of the data that 
they are looking at coming into the integration center.
    And so, they have listened to the interagency partners and 
we have moved forward in that we updated, recently updated the 
charter that we had when the NBIS project first took place, to 
where now all the partners are signatories on that charter 
versus just DHS being a signatory to it.
    We are in the process of creating an NBIS strategic 
direction which will help us, as partners, know exactly, and 
define what we are looking at, where we wanted to head for the 
future, the gaps, the areas we need to examine. And that should 
be ready to go to the Interagency Working Group in October.
    And we are also, working, as I mentioned, with the National 
Security staff on the National Strategy for Biosurveillance. So 
I feel that the folks over at the National Biosurveillance 
Integration Center and the individuals that are managing NBIS 
have really listened to the partners and taken some steps to 
where I think as we move forward, even though it is going to be 
a challenge, that we are going to end up where we need to be in 
the future.
    Senator Akaka. Thank you very much. I have a question for 
Ms. Shames and I would like Dr. Clifford to respond to Ms. 
Shames' comments. Ms. Shames, your testimony states that 
although agencies have taken positive steps on veterinarian 
workforce issues such as creating the Advisory Council, they 
still need to evaluate the veterinarian workforce needed during 
a catastrophic event. Will you please elaborate on this?
    Ms. Shames. Yes, I can. This was a report that you asked us 
to do, Senator, and we were pleased to testify on the results a 
couple of years ago. Basically we found challenges at two 
levels. First of all, the Office of Personnel Management did 
not really have a governmentwide understanding of the Federal 
Government's veterinarian capacity and we know that it is a 
mission-critical position throughout the government.
    We also found that several agencies, including HHS and 
USDA, had not done a workforce plan, again, for veterinarians 
which were considered mission critical for them to fulfill 
their strategic goals. Based on what we have found in our 
updates, OPM has looked governmentwide, has developed this 
interagency forum, and has developed a strategic workforce 
plan.
    However, on the agency front with HHS and USDA, they have 
not yet completed their workforce plans. And as you mentioned, 
in a catastrophic event, veterinarians play a key role. One 
thing in particular that we found at USDA that underscores the 
need for a departmentwide approach is that we found that 
veterinarians were entering USDA through the slaughter plants 
because it is not a very pleasant job, it has a chronic issue 
of vacancies, and as soon as these veterinarians were able, 
they moved on to other parts of USDA.
    So we found that in USDA, the left hand did not know what 
the right hand was doing and that is why we thought that such a 
departmental approach was especially important.
    Senator Akaka. Thank you very much. Your response to her 
comments, Dr. Clifford.
    Mr. Clifford. Yes. Thank you, Mr. Chairman. We do agree 
with the GAO report that there is an issue and concern about 
the veterinarian workforce, and it is not the number of 
graduates, per se, coming out, but it is the number of 
graduates that are going into food animal-type medicine and 
have an interest in that area.
    Having said that, with regards to the Food Safety 
Inspection Service through new hiring authorities, using 
incentives such as repayment of student loans, incentives for 
hiring and working for them, have been able to reduce their 
vacancy rate from about 15 percent to about 7 percent.
    Also, with regards to veterinarian workforce plans, I do 
not know about the departmental level. I know that within 
APHIS, Veterinary Services, we have a workforce plan for our 
needs with regards to veterinarians based upon our current 
resources.
    We also do things like the National Animal Health Emergency 
Response Corps (NAHERC). We have to utilize this--we are not 
going to be able to employ--the Federal Government is not going 
to be able to employ enough veterinarians to be able to handle 
all types of situations. So it is important for us, and through 
our Veterinary Accreditation Program, to call upon the private 
sector and other sectors to assist us in those events, not just 
utilizing the resources within the Federal Government, from 
other government sectors such as FSIS, who is the largest 
employer of veterinarians, in APHIS Veterinary Services, who is 
the second largest employer of veterinarians in the Federal 
Government, but the private sector.
    We have over 600 private veterinarians that are signed up 
for that activity in case of a national emergency, and we have 
over 900 animal health technicians to assist in that area. In 
addition, other things that we're doing is that during an 
event, an occurrence, in a response, things that we would have 
traditionally done and assigned with veterinary oversight, we 
are finding new ways of handling that oversight to free up our 
veterinarians to be able to address the specific disease 
issues.
    Senator Akaka. Thank you. Let me call on the Senator from 
Kansas, Senator Moran, for any further questions.
    Senator Moran. Mr. Chairman, thank you. I have no 
additional questions and I know that a vote has been called at 
4:17. So I appreciate the opportunity to join you here today 
and appreciate the testimony of our witnesses.
    Senator Akaka. Thank you Senator Moran. I would like to 
thank all of our witnesses for being here today. This is a very 
important issue that deserves our utmost attention.
    It is clear that we have made some good progress to improve 
our food and agriculture defenses since the establishment of 
HSPD-9. However, more work needs to be done. I look forward to 
working with the Administration and my colleagues in the Senate 
to make sure we have robust capabilities to defend against both 
intentional and natural threats to the food and agriculture 
systems.
    The hearing record will remain open for 2 weeks for 
additional statements or questions other Members may have for 
you. So the hearing is now adjourned.
    [Whereupon, at 4:24 p.m., the hearing was adjourned.]


                            A P P E N D I X

                              ----------                              




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                             <all>



</pre></body></html>
